  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Accuracy of Unique Physician/Practitioner
  Identification Number Registry Data




                      INSPECTOR GENERAL

                          July 2003
                        OEI-03-01-00380
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                      EXECUTIVE SUMMARY

OBJECTIVE

     To determine whether information contained in the Unique Physician/Practitioner Identification
     Number database is complete and accurate.


BACKGROUND

     The Consolidated Omnibus Budget Reconciliation Act of 1985 required the Centers for

     Medicare & Medicaid Services (CMS) to establish unique identifiers for all physicians who

     provide services to Medicare beneficiaries. As part of the Medicare enrollment process, CMS

     began assigning Unique Physician/Practitioner Identification Numbers (UPINs) to all physicians

     who bill or perform services for Medicare payment. The use of UPINs was later expanded to

     include non-physician practitioners and medical group practices. Information on all UPINs is

     stored in a national database called the Unique Physician/Practitioner Identification Number

     System, also known as the UPIN Registry. The Medicare enrollment process should ensure

     that services are performed only by qualified providers and enable CMS to reduce the potential

     for inappropriate payments. 


     In order to receive a UPIN, a health care provider must enroll with the Medicare 

     Part B carrier serving his or her geographic area. The carrier assigns a separate Provider

     Identification Number (PIN) to each of the provider’s practice locations and submits the

     provider’s information to the UPIN Registry. The Registry then assigns a UPIN to the

     provider. Health care providers must inform the appropriate Part B carrier when changes

     occur in their enrollment information. Carriers are required to maintain and update enrollment

     data and deactivate practice settings that are no longer active. 


     For this inspection, we selected a stratified random sample of 500 UPINs from CMS’s active

     UPIN database. We contacted providers and asked them to verify information contained in the

     UPIN database for each of their active practice settings. Each practice setting record contains

     a provider’s biographical data and data specific to the practice location, including the Medicare

     billing number. We also reviewed the universe of active UPIN database records to identify

     inconsistent, missing, and questionable information. 





   Accuracy of UPIN Data                         i                                        OEI-03-01-00380
FINDINGS

Fifty-two percent of providers in the active UPIN database had inaccurate
information in at least one of their practice setting records

Forty-four percent of PINs have never been used or are no longer used to bill
Medicare

Nine percent of providers could not be contacted by mail

The UPIN record layout and data entry instructions may adversely affect the
accuracy of data

By performing an automated review of the entire UPIN database, CMS could
identify inconsistent, missing, and questionable information



CONCLUSION AND RECOMMENDATIONS

We recognize that CMS has made an effort to improve the completeness and accuracy of the UPIN
Registry. However, the findings of our report demonstrate that the information housed in the UPIN
Registry continues to be inaccurate. The UPIN Registry is the most comprehensive source of
information on all health care practitioners who provide services for which payment is made under
Medicare. When information housed in this Registry is unreliable, CMS’s oversight functions may
become less effective. For instance, inaccurate UPIN data may jeopardize CMS’s ability to identify
unusual billing activity, both in the performance of services and the ordering of services. It may also
inhibit CMS from verifying that sanctions are correctly imposed. Given that information in the UPIN
database is used to update Medicare’s Participating Provider Directory, unreliable UPIN Registry data
could also adversely affect beneficiaries’ ability to make informed choices about health care providers.
Furthermore, CMS intends to use UPIN Registry data to enumerate the National Provider System
(NPS), which will issue and house new National Provider Identifiers (NPIs). The creation of these
standard identifiers was mandated by the Health Insurance Portability and Accountability Act of 1996.
NPIs will replace UPINs in the Medicare program, and are expected to enhance CMS’s ability to
safeguard Medicare and its beneficiaries against fraud, abuse, and inappropriate payments. However,
if inaccurate data are used to populate NPS, the new identifiers will not meet their full potential as a
protection for the Medicare program and the people it serves.




      Accuracy of UPIN Data                        ii                                       OEI-03-01-00380
We recommend that CMS:

      <	        Correct inaccurate and incomplete information in the UPIN Registry and
                deactivate practice settings that have never been or are no longer used by
                Medicare providers. In addition, CMS and its contractors should periodically
                review data contained in the UPIN Registry to ensure that it is complete,
                accurate, and consistent. Automated reviews can be used to target potentially
                inaccurate data in the UPIN database. We will provide CMS with information
                regarding the specific inaccuracies we identified in the UPIN Registry. Complete and
                accurate UPIN data are essential given that CMS intends to transfer provider data from
                the UPIN Registry to the NPS.

      <	        Conduct a review of providers who billed Medicare for Part B services in the
                year 2000 but could not be contacted by mail.

      <	        Review and revise existing UPIN Registry data entry guidelines, including
                format requirements and response categories, to ensure that data are accurately
                recorded. For instance, CMS may want to provide a uniform format for state license
                numbers; expand the length of certain variables, such as street address; and revise the
                categories that carriers use to classify schools, credentials, and specialties. CMS
                should also ensure that changes specified in program memoranda be reflected in the
                Medicare Carriers Manual and that carriers implement those changes. When
                developing the structure of the new NPS, CMS should consider how formatting, space
                allotment, and response categories will affect the accuracy of data.



AGENCY COMMENTS

      CMS concurred with our recommendations and indicated that they are taking steps to correct
      inaccurate and incomplete information in the UPIN Registry, deactivate inactive Medicare
      billing numbers, review providers who billed Medicare in the year 2000 but could not be
      contacted by mail, and review and revise existing UPIN Registry data entry guidelines. CMS
      recently developed a UPIN Registry quality assurance plan to improve the accuracy of data in
      the UPIN Registry. In an effort to enhance existing UPIN data and obtain information needed
      for the NPS, CMS intends to purchase, validate, and replace UPIN information currently
      identified as inaccurate, missing, and incomplete. In addition, CMS will instruct Medicare
      contractors to improve UPIN reporting through education and training; update the UPIN
      instructions contained in the Medicare Carriers Manual; develop consistency edits; and increase
      monitoring of contractors’ UPIN activities. The full text of CMS’s comments is presented in
      Appendix C.




    Accuracy of UPIN Data                          iii                                      OEI-03-01-00380
                             TABLE OF CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Providers Report Inaccurate UPIN Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          PINs That Have Never Been Used or Are No Longer Used . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Providers Who Could Not Be Contacted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          UPIN Record Layout and Data Entry Guidelines May Adversely Affect Data . . . . . . . . . . . . 8


          Using Automated Reviews to Identify Inconsistent, Missing, and Questionable Data . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          B: Frequency of Inaccurate Items . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          C: Comments from the Centers for Medicare & Medicaid Services . . . . . . . . . . . . . . . . . . . 19


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





       Accuracy of UPIN Data                                      iv                                                    OEI-03-01-00380
                             INTRODUCTION

OBJECTIVE

      To determine whether information contained in the Unique Physician/Practitioner Identification
      Number database is complete and accurate.



BACKGROUND

Overview of UPIN Registry Data

      The Consolidated Omnibus Budget Reconciliation Act of 1985 required the Centers for
      Medicare & Medicaid Services (CMS) to establish unique identifiers for all physicians who
      provide services to Medicare beneficiaries. As part of the Medicare enrollment process, CMS
      began assigning Unique Physician/Practitioner Identification Numbers (UPINs) to all physicians
      who bill or perform services for Medicare payment, or who order services that result in
      Medicare payment. The use of UPINs was later expanded to include non-physician
      practitioners and medical group practices.

      Information on all UPINs is stored in a national database called the Unique
      Physician/Practitioner Identification Number System, or UPIN Registry. CMS contracts with a
      single Medicare Part B carrier to maintain the UPIN Registry. The Medicare enrollment
      process is designed to ensure that Medicare beneficiaries are receiving services performed only
      by qualified providers. It may also enable CMS to reduce the potential for inappropriate
      payments. By summarizing data by UPINs, CMS can identify aberrant ordering and billing
      patterns. In addition, information in the UPIN Registry, such as providers’ names, credentials,
      addresses, and specialties, is used to update the “Participating Physician Directory,” an internet
      tool designed to assist Medicare beneficiaries in locating appropriate providers. This
      information is directly available to the public via the Medicare website.

Provider Enrollment

      In order to receive a UPIN, a health care provider must complete and submit an enrollment
      application to the Medicare Part B carrier serving his or her geographic area. If the provider
      intends to bill for services in multiple carrier jurisdictions, a separate enrollment form must be
      sent to each carrier. Enrollment forms require applicants to provide carriers with biographical
      information such as full name, Social Security number, education, medical specialties, and state
      licensing information. Applicants must also provide information for each of their practice
      settings (i.e., physical locations where they provide medical services), including business and
      billing addresses.


    Accuracy of UPIN Data                         1                                          OEI-03-01-00380
      Carriers are responsible for verifying the information provided in an enrollment application,
      particularly the provider’s credentials, state license, certifications, and sanctions. Upon
      completion of the verification process, the carrier assigns a separate Provider Identification
      Number (PIN) to each of the applicant’s practice locations and electronically submits the
      applicant’s information to the UPIN Registry. PINs are Medicare billing numbers. One record
      is submitted per PIN, and each record contains a provider’s biographical data as well as data
      specific to the practice location.

      The UPIN Registry contractor then performs additional validation checks on providers’
      records. These checks include comparisons against the American Medical Association’s
      database of physicians. If the Registry contractor identifies discrepancies in or across records,
      a notice is sent to the responsible carrier who investigates the issue, makes the appropriate
      changes, and resubmits the record to the Registry. If no discrepancies are identified, the
      Registry assigns a UPIN to the provider. Each provider is assigned only one UPIN; however,
      providers may have multiple listings in the UPIN Registry depending upon the number of PINs
      assigned to them.

Maintenance of UPIN Registry Data

      The enrollment application instructs health care providers to alert the appropriate Part B carrier
      to any changes in enrollment information within 90 days of the effective date of the change.
      According to the Medicare Carriers Manual, carriers should maintain provider enrollment data
      and notify the Registry within 5 days of any additions, changes, or deletions reported by
      providers. The Registry contractor also periodically reviews the UPIN database and notifies
      carriers about the suspected death or sanction of a provider. Carriers then have 30 days to
      update the file accordingly. Ultimately, Medicare requires that provider information in the
      UPIN Registry be identical to information in the carriers’ administrative files.

      Carriers are also responsible for deactivating practice setting records that have had no
      Medicare claims activity for 12 consecutive months. A UPIN remains active as long as there is
      claims activity from at least one associated practice setting. If there is no claims activity from
      any of the practice settings for 12 consecutive months, the UPIN becomes inactive as well.
      CMS divides the UPIN Registry into two files, one containing active records and the other
      containing inactive records. Both of these files are updated on a monthly basis.

Previous OIG Work Involving UPINs

      The Office of Inspector General (OIG) has issued several reports relating to UPINs. These
      reports address the accuracy of UPIN data as well as the use of inactive and invalid UPINs on
      Part B claims. In 1999, the OIG issued a report entitled “Accuracy of Unique Physician
      Identification Number Data” (OEI-07-98-00410). This report found that, despite CMS’s
      efforts to enhance the accuracy of information contained in the UPIN Registry, problems with
      the data persisted. For instance, 88 percent of state license numbers in the UPIN Registry did
      not exactly match license numbers provided by state

    Accuracy of UPIN Data                         2                                         OEI-03-01-00380
       licensing boards; 28 percent of records did not contain a Social Security number; and almost
       one-fourth of the active UPINs had no claims activity for 12 months. This report also found
       inconsistencies in providers’ biographical information across different practice setting records.
       Additional problems were identified by a 2001 report, “Inaccuracies in the Unique Physician
       Identification Number Registry: Incorrect Addresses for Mental Health Service Providers”
       (OEI-03-99-00131). According to this report, addresses listed in the UPIN Registry database
       were inaccurate for 28 percent of providers, and carriers did not always have correct
       addresses for the providers. Another 2001 report, “Medical Equipment and Supply Claims
       with Invalid or Inactive Physician Numbers” (OEI-03-01-00110), found that Medicare paid
       $32 million for medical equipment and supply claims with invalid UPINs in 1999. It also found
       that Medicare paid $59 million in 1999 for medical equipment and supply claims with UPINs
       that were inactive on the date of service.

National Provider Identifier Initiative

       For the purposes of administrative simplification, the Health Insurance Portability and
       Accountability Act of 1996 mandated the adoption of a “standard, unique health identifier for
       each individual, employer, health plan, and health care provider for use in the health care
       system.” These identifiers, known as National Provider Identifiers (NPIs), will be issued by the
       National Provider System (NPS). The new identifiers are designed to facilitate the exchange of
       provider data across health plans and assist in the prevention of fraud, abuse, and inappropriate
       payments in health care programs. NPIs will eventually replace UPINs in the Medicare
       program. At this time, CMS intends to use UPIN Registry data to initially populate the NPS.
       To ensure an effective transition to the new provider identifier system, CMS and its contractors
       have taken steps to improve the accuracy of the UPIN file. Program memoranda issued in
       1998 and 2000 instruct Part B carriers to deactivate inactive practice settings and update
       UPIN Registry records with correct addresses, states of licensure, school codes, dates of birth,
       and specialties.



METHODOLOGY

Sample Design

       We obtained an August 2001 copy of CMS’s active UPIN database containing information
       about UPINs and their associated PINs. Each PIN represents a unique practice setting. We
       divided the universe of active UPINs for individual health care providers into two strata based
       on the number of active practice settings associated with each provider. The first stratum
       consisted of providers with 10 or more active practice settings, and the second stratum
       consisted of providers with less than 10 active practice settings. We selected a random sample
       of 100 UPINs from the first stratum and 400 UPINs from the second stratum for a total sample
       of 500 UPINs. We then selected all of the active practice setting records associated with each
       of the sample providers. A description of the sample is provided in Table 1 on the next page.


     Accuracy of UPIN Data                         3                                        OEI-03-01-00380
      Table 1. Sample of Health Care Providers and their Associated Practice Settings

        Strata     Description                       UPINs          UPINs            PINs          PINs
                                                  in Universe     in Sample       in Universe   in Sample

        1          Providers with 10 or More
                                                     8,207           100            108,499        1,314
                   Practice Settings

        2          Providers with Fewer Than
                                                    868,319          400           1,876,491        882
                   10 Practice Settings

        Total                                       876,526          500           1,984,990       2,196


Data Collection

      We obtained sample providers’ current mailing addresses from Part B carriers, or when carrier
      addresses were incorrect or unavailable, from the UPIN file. We contacted sample providers
      by overnight mail and asked them to verify information contained in the UPIN database for
      each of their active practice settings. We made up to three written attempts to contact
      providers. Providers were asked to verify the following information: UPIN, name, Social
      Security number, credentials, date of birth, professional school, year of graduation, specialties,
      certifications, state licensing information, group practice participation, Medicare participation,
      practice setting addresses, whether PINs were ever used to bill Medicare, and whether PINs
      are currently used to bill Medicare. If providers identified any inaccurate information, we asked
      them to provide us with the correct information.

      We received responses from 387 of the 500 providers in our sample. However, responses
      from 22 of these providers were not included in our analysis. Of these 22 providers, responses
      from 13 did not contain information sufficient for analysis, and responses from 9 were received
      after the data collection cutoff. Responses from the remaining 365 providers were used as the
      basis for the analysis of sample data. The 365 providers in our sample represent 652,342
      providers and 1,400,476 practice settings in the universe.

      We did not receive responses from 65 providers after 3 written requests. We were unable to
      contact the remaining 48 providers because the mailing addresses provided by carriers or the
      UPIN database were incorrect or insufficient, and our mailings were returned as undeliverable.

Data Analysis

      Analysis of sample data. We analyzed sample providers’ responses to determine whether
      providers could verify their UPINs, whether providers have ever used their PINs to bill
      Medicare, and whether providers currently use their PINs to bill Medicare. We did not
      determine whether providers notified carriers about PINs that they never or no longer use. We
      identified inaccurate information only for those PINs that providers reported using at the time of
      our review. There were 21 data elements used in our analysis of inaccurate information
      included in the UPIN Registry database. According to the UPIN


    Accuracy of UPIN Data                             4                                         OEI-03-01-00380
  record layout outlined in the Carriers Manual, 18 of the 21 data elements are required. The
  remaining three data elements (primary specialty certification, secondary speciality, and
  secondary specialty certification) should be included in the UPIN Registry “if available.”

  When providers identified inaccurate information, we asked them to provide us with correct
  information. When reviewing this corrected information, we identified cases where data
  contained in the UPIN Registry was inaccurate due only to certain restrictions imposed by
  either the UPIN file record layout or the data entry guidelines specified in the Medicare
  Carriers Manual or CMS’s UPIN data dictionary. For instance, the UPIN Registry record
  layout allows only six characters for a provider’s middle name. If the provider’s middle name
  exceeded six characters, the name was truncated and the provider indicated that the truncated
  name was incorrect. We recoded these types of responses to capture issues relating to record
  layout and data entry guidelines. We did not consider these cases to be inaccurate.

  We estimated the proportion of practice setting records with inaccurate information, as well as
  the proportion of sample UPINs with at least one inaccurate practice setting record. In
  addition, we determined whether providers with a large number of practice locations are more
  likely to have inaccurate information in their records.

  The results of our analysis of sample data are projectable to the responding universe. Point
  estimates and confidence intervals for all statistics presented in the findings of this report are
  provided in Appendix A.

  Analysis of all active UPIN records. We reviewed the universe of active UPIN Registry
  records to identify instances where the content and format of a provider’s biographical
  information was inconsistent from one practice setting to the next. We also analyzed the entire
  active UPIN Registry database to determine whether the universe of UPIN Registry records
  contained any missing or questionable entries. We reviewed records to determine if entries for
  the following information were either missing or questionable: name, address, date of birth,
  header Social Security number (the Social Security number submitted with the provider’s initial
  practice setting), credentials, state license, professional school code, graduation year, primary
  specialty code, secondary specialty code, resident/intern status, and practitioner type.


  This inspection was conducted in accordance with the Quality Standards for Inspections
  issued by the President’s Council on Integrity and Efficiency.




Accuracy of UPIN Data                           5                                           OEI-03-01-00380
                                     FINDINGS


     Our review of the entire active UPIN Registry (1,984,990 records) revealed that the UPIN
     database contained inconsistent, incomplete, and questionable data. Furthermore, a review of
     responses from a stratified random sample of 500 Medicare providers, who were asked to
     verify information contained in the UPIN Registry for each of their active practice settings,
     found that the UPIN Registry also contains inaccurate information. The combination of these
     findings provides strong evidence that the UPIN Registry contains unreliable information.
     Unreliable UPIN Registry data undermines the effectiveness of the Medicare claims review
     process. It may also lead to the provision of erroneous information to Medicare beneficiaries.
     Moreover, unreliable UPIN Registry information may be transferred into the new National
     Provider System (NPS). The National Provider Identifiers (NPIs) housed in this new system
     are expected to prevent fraud, abuse, and inappropriate payments. However, if inaccurate
     data are used to populate the system, the new national identifiers will not meet their full potential
     as a program safeguard.



Fifty-two percent of providers in the active UPIN database had
inaccurate information in at least one of their practice setting
records
     Based on our sample, we estimate that over half of providers listed in the active UPIN database
     had at least one practice setting record with inaccurate information. Providers can have one or
     more practice settings in the UPIN database. In our sample, the number of active practice
     settings per provider ranged from 1 to 30. Providers with a higher number of practice settings
     (10 or more) were more likely to have active UPIN Registry records with inaccurate
     information.

     We estimate that 35 percent of all practice setting records in the active UPIN database
     contained at least one inaccurate item; and the number of incorrect items on individual
     inaccurate practice setting records ranged from 1 to 9. We identified inaccurate information
     only for those practice settings that providers reported using at the time of our review.
     Information that was most often inaccurate included: whether the provider is certified in his/her
     primary specialty, the provider’s secondary specialty, whether the provider is certified in his/her
     secondary specialty, professional school, state license number, and Social Security number.
     Addresses for practice locations (street, city, zip code) were often inaccurate as well. Table 2
     on the next page shows the items that were most frequently inaccurate, and Appendix B
     provides a complete listing of inaccurate items.




   Accuracy of UPIN Data                          6                                          OEI-03-01-00380
     Table 2. UPIN Registry Information That Was Most Often Inaccurate
       Inaccurate Information                                           Percent of Active Practice Settings with
                                                                                Inaccurate Information

       Primary Specialty Certification                                                  32.61%

       Secondary Specialty                                                              23.16%

       Secondary Specialty Certification                                                18.15%

       Street Address of Practice Location                                              17.48%

       Zip Code of Practice Location                                                    13.40%

       Professional School                                                              10.98%

       State License Number                                                              9.69%

       Group Practice Participation                                                      8.91%

       Medicare Participation Status                                                     6.60%

       Primary Specialty                                                                 5.31%

       Social Security Number                                                            5.11%
     Source: Analysis of sample providers’ responses from 2001 OIG survey


     When information in the UPIN Registry is inaccurate, CMS cannot effectively identify aberrant
     ordering and billing activity. For example, CMS’s contractors have used specialty information
     to identify cases where psychiatrists were listed as ordering physicians on Medicare claims for
     wheelchairs. Psychiatrists would not typically order wheelchairs for beneficiaries. If specialty
     information in the UPIN Registry is inaccurate, CMS may not be able to correctly identify this
     kind of aberrant ordering activity. CMS could also use practice location address information in
     the UPIN file to identify cases where physicians bill or order services for beneficiaries who live
     a significant distance from any of the physician offices. However, CMS may not be able to
     detect these unusual cases if address information in the UPIN Registry is inaccurate. In
     addition, inaccurate provider names, credentials, addresses, and specialties in the UPIN
     database may prevent beneficiaries who use Medicare’s Participating Provider Directory from
     making informed choices about health care providers. Finally, inaccurate UPIN Registry data
     may be used to populate the NPS. This would compromise CMS’s ability to use the new
     identifiers contained in the NPS to safeguard Medicare against fraud and abuse.



Forty-four percent of PINs have never been used or are no
longer used to bill Medicare

     An estimated 619,105 of 1,400,476 practice settings (44 percent) should no longer be in the
     active UPIN database. According to providers’ responses, 16 percent of PINs listed in the
     active UPIN database have never been used to bill for Medicare services. Providers also
     reported that an additional 28 percent of “active” PINs are no longer being used to


   Accuracy of UPIN Data                               7                                               OEI-03-01-00380
     bill Medicare and should therefore be deactivated. Forty-nine percent of providers had at least
     one inactive practice setting in the active UPIN Registry.

     Seventeen percent of providers no longer bill Medicare using any of the PINs listed in the
     active UPIN file. Of these providers, over 14 percent are deceased, and 26 percent indicated
     they had retired. A provider’s UPIN should be deactivated if all of the practice settings
     associated with that UPIN are no longer active.

Nine percent of providers could not be contacted by mail

     We were unable to contact 9 percent of providers due to incorrect or insufficient address
     information either provided by Medicare Part B carriers or listed in the UPIN database. More
     than half (52 percent) of these providers billed Medicare for Part B services in the year 2000.
     Actual Medicare payments to sample providers who could not be contacted by mail ranged
     from $34 to $513,255 in the year 2000, with one-quarter of providers receiving more than
     $40,000 in payments.

     For most of the providers who could not be reached, we used every practice location address
     listed in the active UPIN Registry in our attempt to make contact. Although we did not include
     the practice setting records for these providers in our analysis of inaccurate UPIN data, we
     believe the mail returns indicate that address information in the UPIN Registry may not have
     been complete and accurate for these providers.

The UPIN record layout and data entry instructions may
adversely affect the accuracy of data

     Information contained in the UPIN Registry could be construed as inaccurate due to data entry
     guidelines specified in the Medicare Carriers Manual. In some cases, formatting instructions or
     space allotment affected the accuracy of data. In other cases, the accuracy of information was
     affected by the categories that carriers use to classify data. Because carriers appear to have
     been following the data entry guidelines when inputting this information, we did not include these
     items in our error rate for inaccurate records.

     Formatting. Some of the state license numbers contained in the active UPIN Registry were
     adversely affected by formatting requirements. The Medicare Carriers Manual stipulates that
     entries for state license number should be 12 characters in length, right justified, and preceded
     by zeros. For example, we found that the license number “35-07-8566-Y” was input as
     “00035078566Y,” a change that could make the number difficult to verify with state licensing
     agencies. A January 1998 program memorandum (B-98-3) issued by CMS confirms this
     conclusion, stating that the convention is “creating a problem in identifying the correct license
     number.” Although this memorandum instructs carriers to left justify license numbers and to
     eliminate leading zeros, there has been no change to the data entry guidelines outlined in the
     Carriers Manual.

   Accuracy of UPIN Data                         8                                          OEI-03-01-00380
     Restrictions regarding the length of certain variables could also produce errors in UPIN
     Registry records. Three percent of practice settings that were currently used by providers
     contained middle names that were truncated either because the UPIN record layout allows only
     six characters for that field or because carriers entered the first initial only. The UPIN record
     layout allows only 25 characters for street address, a restriction that caused 1 percent of active
     practice setting records to lose important information, such as suite numbers.

     Categorization. The accuracy of some information may be affected by the categories that
     carriers use to classify data. Six percent of practice settings currently used by providers
     contained school codes that may not accurately reflect the specific schools attended by
     Medicare providers. Although carriers use specific codes to identify schools for medical
     doctors, osteopaths, chiropractors, podiatrists, and optometrists, they use only general codes to
     categorize foreign schools, nursing schools, dental schools, and schools attended by other types
     of health care providers. Carriers also use a limited list of codes to record providers’
     professional credentials. For 6 percent of active practice settings, the codes used to classify
     credentials may not accurately capture providers’ qualifications. For instance, two providers
     listed their credentials as “CRNA” (certified registered nurse anesthetist). However, this
     credential was not a code that carriers could use. The contractor for one of these providers
     recorded the credential as “CNA,” which the UPIN data dictionary defines as “certified nurse
     anesthetist.” The contractor for the other provider recorded the credential as “RNA,” which
     the UPIN data dictionary defines as “certified registered nurse.” Similar categorization
     problems can occur with primary and secondary specialty codes.



By performing an automated review of the entire UPIN
Regsitry, CMS could identify inconsistent, missing, and
questionable information

     According to our own automated review of the universe of active UPIN Registry records, 19
     percent of providers in the UPIN Registry had one or more of the following problems: at least
     one active practice setting record with missing data, at least one active practice setting record
     with questionable data, or biographical information that was inconsistent from one practice
     setting to the next. Although an automated review would not detect all of the inaccurate UPIN
     information that could be found by verifying information with providers, computer programs
     could easily identify missing, questionable, and inconsistent data.

     Missing data. According to our analysis of the entire UPIN database, required information
     was not always recorded in practice setting records. Sixteen percent of providers had at least
     one active practice setting record with missing information. Missing information included Social
     Security numbers, street addresses of practice locations, and cities of practice locations.




   Accuracy of UPIN Data                         9                                         OEI-03-01-00380
  Questionable data. One percent of providers in the active UPIN Registry had at least one
  record that contained either questionable data or data that did not comply with data entry
  guidelines. Examples of questionable entries include school codes that are not specified in the
  Medicare Carriers Manual, implausible dates of birth, and implausible graduation years.

  Inconsistent data. An analysis of the entire active UPIN database revealed that a provider’s
  biographical information, such as credentials, resident/intern status, and practitioner type, was
  not always consistent from one practice setting to the next. Two percent of providers had
  UPIN data that was not consistent across all of their practice settings.




Accuracy of UPIN Data                        10                                         OEI-03-01-00380
                                 CONCLUSION


      We recognize that CMS has made an effort to improve the completeness and accuracy of the
      UPIN Registry. However, the findings of our report demonstrate that the information housed in
      the UPIN Registry continues to be inaccurate. The UPIN Registry is the most comprehensive
      source of information on all health care practitioners who provide services for which payment is
      made under Medicare. When information housed in this Registry is unreliable, CMS’s
      oversight functions may become less effective. For instance, inaccurate UPIN data may
      jeopardize CMS’s ability to identify unusual billing activity, both in the performance of services
      and the ordering of services. It may also inhibit CMS from verifying that sanctions are correctly
      imposed. Given that information in the UPIN database is used to update Medicare’s
      Participating Provider Directory, unreliable UPIN Registry data could also adversely affect
      beneficiaries’ ability to make informed choices about health care providers. Furthermore,
      CMS intends to use UPIN Registry data to enumerate the National Provider System (NPS),
      which will issue and house new National Provider Identifiers (NPIs). The creation of these
      standard identifiers was mandated by the Health Insurance Portability and Accountability Act of
      1996. NPIs will replace UPINs in the Medicare program, and are expected to enhance
      CMS’s ability to safeguard Medicare and its beneficiaries against fraud, abuse, and
      inappropriate payments. However, if inaccurate data are used to populate NPS, the new
      identifiers will not meet their full potential as a protection for the Medicare program and the
      people it serves.


                            RECOMMENDATIONS


We recommend that CMS:

      <	        Correct inaccurate and incomplete information in the UPIN Registry and
                deactivate practice settings that have never been or are no longer used by
                Medicare providers. In addition, CMS and its contractors should periodically
                review data contained in the UPIN Registry to ensure that it is complete,
                accurate, and consistent. Automated reviews can be used to target potentially
                inaccurate data in the UPIN database. We will provide CMS with information
                regarding the specific inaccuracies we identified in the UPIN Registry. Complete and
                accurate UPIN data are essential given that CMS intends to transfer provider data from
                the UPIN Registry to the NPS.

      <	        Conduct a review of providers who billed Medicare for Part B services in the
                year 2000 but could not be contacted by mail.

    Accuracy of UPIN Data                        11                                        OEI-03-01-00380
  <	        Review and revise existing UPIN Registry data entry guidelines, including
            format requirements and response categories, to ensure that data are accurately
            recorded. For instance, CMS may want to provide a uniform format for state license
            numbers; expand the length of certain variables, such as street address; and revise the
            categories that carriers use to classify schools, credentials, and specialties. CMS
            should also ensure that changes specified in program memoranda be reflected in the
            Medicare Carriers Manual and that carriers implement those changes. When
            developing the structure of the new NPS, CMS should consider how formatting, space
            allotment, and response categories will affect the accuracy of data.



                        AGENCY COMMENTS


  CMS concurred with our recommendations and indicated that they are taking steps to correct
  inaccurate and incomplete information in the UPIN Registry, deactivate inactive Medicare
  billing numbers, review providers who billed Medicare in the year 2000 but could not be
  contacted by mail, and review and revise existing UPIN Registry data entry guidelines. CMS
  recently developed a UPIN Registry quality assurance plan to improve the accuracy of data in
  the UPIN Registry. In an effort to enhance existing UPIN data and obtain information needed
  for the NPS, CMS intends to purchase, validate, and replace UPIN information currently
  identified as inaccurate, missing, and incomplete. In addition, CMS will instruct Medicare
  contractors to improve UPIN reporting through education and training; update the UPIN
  instructions contained in the Medicare Carriers Manual; develop consistency edits; and increase
  monitoring of contractors’ UPIN activities. The full text of CMS’s comments is presented in
  Appendix C.




Accuracy of UPIN Data                         12                                        OEI-03-01-00380
                                                                                                    APPENDIX A




                               Estimates and Confidence Intervals


                                                                                                                            PAGE

TABLE 1. Providers and Practice Settings with Inaccurate UPIN Data . . . . . . . . . . . . . . . . . . . 14


TABLE 2. 	 Providers with Inaccurate UPIN Data by Number of Active Practice Settings 

           Per Provider . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


TABLE 3. UPIN Registry Information That Was Most Often Inaccurate . . . . . . . . . . . . . . . . . . 15


TABLE 4.	 PINs in Active UPIN Database That Have Never Been Used or 

          Are No Longer Used . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


TABLE 5. Providers with Inactive Practice Settings in the Active UPIN Database . . . . . . . . . . . 16


TABLE 6. Providers Who Could Not Be Contacted by Mail . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


TABLE 7. Information in Active Practice Settings That May Be Inaccurate 

         Due to UPIN Data Entry Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





       Accuracy of UPIN Data                                     13                                                   OEI-03-01-00380
                                                                                                  APPENDIX A



                               Estimates and Confidence Intervals



The tables below contain statistical estimates presented in the Findings section of this report. These
estimates are weighted based on the stratified random sample design and are reported at the 95 percent
confidence level.



Table 1.
                           Providers and Practice Settings with Inaccurate UPIN Data

                                                                   Point Estimate            95% Confidence Interval

 Percent of Providers with at Least One                            52.49%                    46.86% - 58.12%
 Inaccurate Practice Setting Record

 Percent of Practice Setting Records Containing at                 34.95%                    31.34% - 38.56%
 Least One Inaccurate Item




Table 2.
                                      Providers with Inaccurate UPIN Data

                                by Number of Active Practice Settings Per Provider


                                                                   Percent of                95% Confidence Interval
                                                                   Providers

 10 or More Practice Settings                                      68.66%                    57.47% - 79.85%

 Less Than 10 Practice Settings                                    52.35%                    46.67% - 58.03%
Difference between percentages is significant at above the 95% confidence level. (Chi-square statistic=6.49, df=1, p=0.011)




       Accuracy of UPIN Data                                    14                                                  OEI-03-01-00380
                                                                            APPENDIX A



Table 3.
                        UPIN Registry Information That Was Most Often Inaccurate

 Inaccurate Information                       Percent of Active          95% Confidence Interval
                                              Practice Settings with
                                              Inaccurate Information

 Primary Specialty Certification              32.61%                     27.42% - 37.80%

 Secondary Specialty                          23.16%                     17.95% - 28.37%

 Secondary Specialty Certification            18.15%                     13.39% - 22.91%

 Street Address of Practice Location          17.48%                     13.31% - 21.65%

 Zip Code of Practice Location                13.40%                     9.64% - 17.16%

 Professional School                          10.98%                     7.53% - 14.43%

 State License Number                         9.69%                      6.44% - 12.94%

 Group Practice Participation                 8.91%                      5.72% - 12.10%

 Medicare Participation Status                6.60%                      3.86% - 9.34%

 Primary Specialty                            5.31%                      2.86% - 7.76%

 Social Security Number                       5.11%                      2.68% - 7.54%



Table 4.
                                       PINs in Active UPIN Database
                              That Have Never Been Used or Are No Longer Used

                                                        Point Estimate   95% Confidence Interval

 Percent of PINs in Active UPIN Database That          44.21%            40.47% - 47.95%
 Have Never Been Used or Are No Longer Used

 Percent of PINs in Active UPIN Database That          16.33%            13.61% - 19.05%
 Have Never Been Used to Bill Medicare

 Percent of PINs in Active UPIN Database That          27.88%            24.49% - 31.27%
 Are No Longer Used to Bill Medicare




      Accuracy of UPIN Data                           15                                   OEI-03-01-00380
                                                                            APPENDIX A




Table 5.
                 Providers with Inactive Practice Settings in the Active UPIN Database

                                                     Point Estimate     95% Confidence Interval

 Percent of Providers with at Least One Inactive    49.01%              43.37% - 54.66%
 Practice Setting in the Active UPIN Database

 Percent of Providers Who No Longer Bill Using      16.75%              12.54% - 20.96%
 Any of the PINs in the Active UPIN Database

 Percent of Providers with No Active PINs Who       13.98%              4.42% - 23.54%
 are Deceased

 Percent of Providers with No Active PINs Who       25.83%              13.74% - 37.92%
 Are Retired




Table 6.
                             Providers Who Could Not Be Contacted by Mail

                                                     Point Estimate     95% Confidence Interval

 Percent of Providers Who Could Not Be              8.79%               6.05% - 11.53%
 Contacted by Mail

 Percent of Providers Who Could Not Be              51.67%              35.32% - 68.02%
 Contacted Who Billed Medicare in 2000




     Accuracy of UPIN Data                         16                                     OEI-03-01-00380
                                                                            APPENDIX A




Table 7.
                     Information in Active Practice Settings That May Be Inaccurate
                                   Due to UPIN Data Entry Guidelines

                                                     Point Estimate     95% Confidence Interval

 Percent of Active Practice Settings Containing      3.43%              1.39% - 5.47%
 Truncated Middle Names

 Percent of Active Practice Settings Containing      0.64%              0% - 1.52%
 Truncated Street Addresses

 Percent of Active Practice Settings Containing      5.58%              3.03% - 8.13%
 School Codes that May Not Be Accurate Due to
 Categorization

 Percent of Active Practice Settings Containing      5.76%              3.17% - 8.35%
 Credentials that May Not Be Accurate Due to
 Categorization




     Accuracy of UPIN Data                        17                                    OEI-03-01-00380
                                                                                   APPENDIX B



        Frequency of Inaccurate Information in the UPIN Registry


 Inaccurate Information                                                Percent of Active Practice Settings
                                                                          with Inaccurate Information

 Primary Specialty Certification                                                    32.61%

 Secondary Specialty                                                                23.16%

 Secondary Specialty Certification                                                  18.15%

 Street Address of Practice Location                                                17.48%

 Zip Code of Practice Location                                                      13.40%

 Professional School                                                                10.98%

 State License Number                                                                9.69%

 Group Practice Participation                                                        8.91%

 Medicare Participation Status                                                       6.60%

 Primary Specialty                                                                   5.31%

 Social Security Number                                                              5.11%

 City of Practice Location                                                           4.87%

 Date of Birth                                                                       4.46%

 Year of Graduation                                                                  2.26%

 Middle Name                                                                         1.80%

 First Name                                                                          1.60%

 Last Name                                                                           1.28%

 Suffix                                                                              0.78%

 Credentials                                                                         0.64%

 State of Practice Location                                                          0.64%

 State of Licensure                                                                  0.32%
Source: Analysis of sample providers’ responses from 2001 OIG Survey




       Accuracy of UPIN Data                               18                                    OEI-03-01-00380
                                                  APPENDIX C



                          Comments from the 

              Centers for Medicare and Medicaid Services





Accuracy of UPIN Data             19                        OEI-03-01-00380
                             APPENDIX C




Accuracy of UPIN Data   20         OEI-03-01-00380
                             APPENDIX C




Accuracy of UPIN Data   21         OEI-03-01-00380
                         ACKNOWLEDGMENTS

This report was prepared under the direction of Robert A. Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia, and Linda M. Ragone, Deputy Regional Inspector General.
Other principal Office of Evaluation and Inspections staff who contributed include:

Lauren McNulty, Project Leader
Jana Garber, Program Analyst
Tricia Davis, Program Specialist
Bambi Straw, Program Specialist




                             For information or copies of this report, please contact

                                       the Office of Inspector General’s

                                    Public Affairs office at (202) 619-1343.


             Reports are also available on the World Wide Web at our home page address:

                                        http://www.oig.hhs.gov/

     Accuracy of UPIN Data                             22                                OEI-03-01-00380
